                        Department of the Interior
                       Office of Inspector General




                        Audit Report

                Department of the Interior
                Internal Control Program




Report No. C-IN-MOA-0002-2006            August 2007
                                EXECUTIVE SUMMARY
                                 WHAT WE FOUND
     WHY WE DID
     THIS AUDIT                  The Department of the Interior (DOI) had not established an
                                 effective program to ensure adequate internal controls over
We performed this audit to       the effectiveness and efficiency of its operations. Although
determine whether DOI            the Office of Financial Management (PFM) developed
established an effective         detailed policies and procedures for implementing DOI’s
internal control program         internal control program, it had not provided effective
for ensuring the                 program management and oversight to ensure that bureaus
effectiveness and efficiency
                                 were complying with the guidance. For example, we found
of its operations in
compliance with Office of        that bureaus we reviewed did not adequately:
Management and Budget
(OMB) Circular A-123,                   plan and prioritize internal control reviews,
“Management’s
Responsibility for Internal             conduct and document reviews to identify deficiencies
Control.”                               and develop corrective action plans,

OMB revised Circular A-                 track implementation of corrective actions identified
123 in December 2004 to                 from management-conducted reviews, and
strengthen and improve
accountability for federal
                                        prepare accurate listings reviews to support DOI’s
agencies in light of the new
requirements for publicly               annual assurance statement.
traded companies
contained in the Sarbanes-       These weaknesses in the oversight of the internal control
Oxley Act of 2002.               program increase the risk that DOI’s internal controls cannot
                                 ensure 1) programs achieve their intended results; 2) funds are
Because DOI was in the           used consistent with DOI’s mission; and 3) resources are
process of implementing          protected from waste, fraud, and mismanagement. We also
the new requirements, we         concluded that DOI’s internal control program did not ensure
limited our audit to existing    that bureaus’ annual assurance statements on internal control
requirements that were
                                 were reliable. Therefore, these bureau level assurances may
carried forward into the
revised Circular. We
                                 not have provided adequate support for the Secretary’s
therefore excluded               certification of DOI’s annual statement of assurance.
requirements contained in
Appendix A of the new            OMB Circular A-123, “Management’s Responsibility for
Circular that relate to          Internal Control,” identifies the three objectives of internal
financial reporting.             control to be 1) the effectiveness and efficiency of program
                                 operations, 2) reliability of financial reporting, and 3)
Our audit focused on the         compliance with laws and regulations. Our conclusions are
internal control programs        limited to the internal control program as it relates to the
at the Bureau of Indian          effectiveness and efficiency of operations and compliance
Affairs, the Bureau of
                                 with related laws and regulations. Controls over the reliability
Land Management, the
Bureau of Reclamation,
                                 of financial reporting and compliance with related laws and
and the National Park            regulations are tested by KPMG LLP as part of DOI’s annual
Service.                         financial statement audits.


                                                i
During its FY2006 audit, KPMG LLP reported similar conclusions regarding DOI’s
internal control program as it relates to financial reporting. KPMG LLP identified DOI’s
control assessment and assurance statement process as a “reportable condition,” or a
deficiency that could adversely affect DOI’s ability to record, process, summarize, and
report financial data. Specifically, KPMG LLP concluded that while DOI established an
effective plan to assess, document, test and report on internal controls over financial
reporting, certain DOI components did not fully execute the plan. Despite this reportable
condition, KPMG LLP was able to conduct sufficient procedures to express an opinion
that DOI’s FY2006 financial statements were presented fairly, in all material respects, in
conformity with U.S. generally accepted accounting principles.

During our audit, we also found that PFM’s audit follow-up process did not ensure that
Office of Inspector General (OIG) recommendations were implemented. PFM closed OIG
audit recommendations without ensuring that bureaus actually implemented them. During
FY2005 and FY2006, we reviewed 69 recommendations reported as implemented and
determined that 18 (26 percent) had not actually been implemented.

Because of these deficiencies in DOI’s internal control program and audit follow-up
process, we concluded that DOI was not in full compliance with the Federal Managers’
Financial Integrity Act and OMB Circulars A-123 and A-50, “Audit Followup.”

In its response to our draft report, management disagreed with our overall conclusion that
DOI had not established an effective internal control program and that assurance
statements therefore may not be reliable. However, management agreed that the program
could be continually improved and cited recent steps it has taken to provide greater
oversight to the bureaus. Management concurred with all four recommendations we made
for improving DOI’s internal control program. These recommendations include best
practices we identified from other federal agencies that DOI should consider adopting to
strengthen its internal control program.

After considering management's response, we stand by our conclusions on DOI's internal
control program. Our results show that the bureaus we reviewed were not effectively
implementing their internal control responsibilities and PFM had not taken sufficient steps
to hold them accountable. PFM has recently taken positive steps to improve its oversight
over the bureaus; however, PFM is in the initial stages of implementing these additional
oversight procedures.




                                            ii
                                              CONTENTS

INTRODUCTION..................................................................................................... 1
     AUDIT OBJECTIVE ................................................................................... 1
     BACKGROUND ......................................................................................... 1

AUDIT RESULTS.................................................................................................... 3
     PLANNING AND PRIORITIZING INTERNAL CONTROL REVIEWS................ 4
     CONDUCTING AND DOCUMENTING INTERNAL CONTROL REVIEWS ........ 5
     TRACKING IMPLEMENTATION OF CORRECTIVE ACTIONS ....................... 5
     SUPPORTING DOI’S ANNUAL ASSURANCE STATEMENT ......................... 6
     AUDIT FOLLOW-UP .................................................................................. 6
     CONSEQUENCES OF WEAKNESSES IN DOI’S INTERNAL CONTROL
        PROGRAM........................................................................................... 8
     BEST PRACTICES ..................................................................................... 8
     MANAGEMENT VIEWS ............................................................................. 10

RECOMMENDATIONS ..................................................................................... 12

APPENDICES
     1–SCOPE AND METHODOLOGY................................................................                   15
     2–DOI OFFICES, BUREAUS, OTHER FEDERAL AGENCIES AND
        NON-GOVERNMENTAL ENTITIES CONTACTED ...................................                                17
     3–ACRONYMS AND ABBREVIATIONS ......................................................                       19
     4–STATUS OF AUDIT RECOMMENDATIONS .............................................                           20




                                                        iii
                               INTRODUCTION

                               AUDIT OBJECTIVE
The objective of our audit was to determine whether DOI established an effective internal
control program for ensuring the effectiveness and efficiency of its operations.
Specifically, did DOI have adequate processes for:

       program management and oversight,

       planning annual internal control reviews,

       conducting and monitoring internal control reviews,

       implementing corrective actions,

       supporting the annual assurance statements, and

       audit follow-up.

                                  BACKGROUND
The Federal Managers’ Financial Integrity Act of 1982 and OMB Circular A-123,
“Management’s Responsibility for Internal Control,” require federal agencies to establish
and maintain internal controls to achieve the objectives of effective and efficient
operations, reliable financial reporting, and compliance with applicable laws and
regulations. Annually, agency heads must provide to the President and the Congress a
statement of assurance representing his/her informed judgment as to the overall adequacy
and effectiveness of internal control within the agency. Specifically, these statements
provide assurance that:

       obligations and costs are in compliance with applicable laws;

       funds, property, and other assets are safeguarded against waste, loss, unauthorized
       use, or misappropriation; and

       revenues and expenditures are properly recorded and accounted for to permit the
       preparation of reliable financial and statistical reports.

OMB revised Circular A-123 in December 2004 to include new requirements effective in
FY2006. The revision reexamined the internal control requirements for federal agencies
in light of the new requirements for publicly traded companies contained in the Sarbanes-
Oxley Act of 2002. That Act was passed as a response to the crisis of confidence in the
financial integrity of public companies after several high profile scandals. One of the
primary changes in Circular A-123 was an increased focus on internal control over

                                            1
financial reporting. OMB added Appendix A to Circular A-123 to specifically address
controls over financial reporting. Additionally, the revision required agencies to include
their statement of assurance in their annual Performance Accountability Report. During
our audit, DOI was in the process of implementing the new requirements. We focused
our audit on the existing internal control requirements being carried forward into the
revised Circular A-123. We focused on requirements supporting the effectiveness and
efficiency of operations as well as compliance with related laws and regulations.
Controls over the reliability of financial reporting and compliance with related laws and
regulations are tested by KPMG LLP as part of DOI’s annual financial statement audits.

OMB Circular A-50, “Audit Followup,” provides requirements for federal agencies’
follow-up on audits performed by Inspectors General, other executive branch audit
organizations, the Government Accountability Office (GAO), and non-federal auditors.
Circular A-50 requires agency heads to appoint a senior manager to serve as an audit
follow-up official who has personal responsibility for ensuring that:

       systems of audit follow-up, resolution, and corrective action are documented and
       in place;

       timely responses are made to all audit reports;

       disagreements are resolved; and

       corrective actions are actually taken.

The Assistant Secretary for Policy, Management and Budget (PMB) is DOI’s designated
audit follow-up official and has overall responsibility for implementation and oversight
of the internal control and audit follow-up program. PMB’s Office of Financial
Management (PFM) is responsible for providing program guidance and oversight to the
bureaus. As a result of the revision in Circular A-123, PFM revised its guidance in 2005
by developing its new Internal Control and Audit Follow-up Handbook (Handbook). In
2006, the Handbook was implemented although it was still in draft and had not been
formally approved. PFM issues annual guidelines to bureaus for the internal control and
audit follow-up programs. PFM is also responsible for the resolution of OIG and GAO
audit report recommendations and determination that audit recommendations have been
implemented.

Senior DOI officials and bureau directors are responsible for establishing and
maintaining adequate systems of internal control within their offices and bureaus. This
responsibility includes having procedures and systems in place to provide program
information, plan and conduct internal control reviews, report program results, and
provide annual assurance statements to DOI’s Secretary on the effectiveness of the
internal control systems.




                                                2
                                 AUDIT RESULTS

DOI had not established an effective internal control program to ensure adequate internal
controls over the effectiveness and efficiency of its operations. Although PFM developed
comprehensive policies and procedures for implementing DOI’s internal control program,
it had not provided the necessary program management and oversight to ensure that
bureaus were complying with the guidance. Specifically, we found that the bureaus we
reviewed did not adequately:

       plan and prioritize internal control reviews,

       conduct and document reviews to identify deficiencies and develop corrective
       action plans,

       track implementation of corrective actions identified from management-
       conducted reviews, and

       prepare accurate listings of reviews to support DOI’s annual assurance statement.

Our conclusions are limited to the internal control program as it relates to the
effectiveness and efficiency of operations and compliance with related laws and
regulations. Controls over the reliability of financial reporting and compliance with
related laws and regulations are tested by KPMG LLP as part of DOI’s annual financial
statement audits. During its FY2006 audit of DOI’s financial statements, KPMG LLP
reported similar conclusions regarding DOI’s internal control program as it relates to
financial reporting. KPMG LLP identified DOI’s control assessment and assurance
statement process as a “reportable condition,” or a deficiency that could adversely affect
DOI’s ability to record, process, summarize, and report financial data. Specifically,
KPMG LLP concluded that while DOI established an effective plan to assess, document,
test and report on internal controls over financial reporting, certain DOI components did
not fully execute the plan. As a result, DOI did not consistently identify, document, and
test key financial controls; did not fully document the procedures performed to test the
design and operating effectiveness of certain controls; did not consistently document its
evaluation of the test results; and did not adequately document the population, sample
size or period tested. Despite the reportable condition regarding the control assessment
and assurance statement process, KPMG LLP was able to conduct sufficient procedures
to express an opinion that DOI’s FY2006 financial statements were presented fairly, in all
material respects, in conformity with U.S. generally accepted accounting principles.

We also found that PFM closed OIG audit recommendations without ensuring that
bureaus actually implemented them.




                                             3
                       PLANNING AND PRIORITIZING
                       INTERNAL CONTROL REVIEWS
We found that the bureaus we reviewed were not following PFM’s guidance for planning
and prioritizing reviews. None of the four bureaus reviewed had developed program
component inventories or conducted risk assessments. Bureaus are required to maintain a
program components inventory, which consists of specific program functions or activities
that can be prioritized for review. Risk assessments are required for all program
components to evaluate the susceptibility to waste, loss, unauthorized use, and/or
misappropriation. How an agency assesses, monitors, and manages risk are critical
elements of any good internal control program.

Many bureau officials we interviewed were not aware of these requirements. Specifically:

       A Bureau of Indian Affairs (BIA) headquarters official stated that BIA
       headquarters does not maintain any inventory of program components but that the
       regional offices may have prepared them. We visited the Southwest Regional
       Office and found it had neither prepared a program component inventory nor
       performed any risk assessments.

       A Bureau of Land Management (BLM) official stated that BLM does not
       maintain a program component inventory. BLM officials acknowledged they
       were aware that risk assessments were required; however, they had not conducted
       any assessments other than the OMB-required improper payments risk
       assessment. BLM officials stated they planned to perform risk assessments in the
       future.

       Bureau of Reclamation (BOR) officials stated that program personnel identify
       components but they do not compile them into an inventory. They also stated
       that no formal risk assessments are conducted.

       National Park Service (NPS) officials stated that they use budget line items as
       their inventory of components. However, they could provide no evidence the
       line items were used for planning reviews or conducting risk assessments.

DOI’s Handbook requires bureaus to prepare and submit annual internal control review
plans that should provide a sufficient basis for the bureaus’ annual assurance statements.
The plans should include a prioritized schedule of reviews to be performed on specific
program components based on their annual risk assessments. PFM approved the bureaus’
annual internal control review plans without ensuring the bureaus complied with the
requirements to prepare program component inventories and conduct risk assessments.




                                            4
                     CONDUCTING AND DOCUMENTING
                      INTERNAL CONTROL REVIEWS
The bureaus we reviewed often did not conduct and document their internal control
reviews in compliance with DOI internal control and audit follow-up guidance. DOI’s
Handbook requires bureaus to summarize internal control review results in a report,
retain supporting documentation for independent review, and prepare corrective action
plans that identify target dates and responsible officials. The Handbook also requires
bureaus to track and document the status of all audit resolution determinations.

During our site visits, we analyzed 63 internal control review files that were identified on
the bureaus’ annual assurance statements and interviewed bureau officials who performed
the reviews. Based on this work, we identified the following deficiencies in the files:

       11 (17 percent) contained no report of the review’s findings.

       25 (40 percent) contained no documentation supporting the review conducted.

       28 (44 percent) contained no corrective action plan.

       44 (70 percent) identified no target dates for action plans.

       44 (70 percent) identified no responsible official.

       48 (76 percent) contained no documented status or resolution determination.

We found that bureau officials either did not plan or conduct internal control reviews to
comply with the Departmental guidance or were unaware of the documentation
requirements in the guidance.

                        TRACKING IMPLEMENTATION
                         OF CORRECTIVE ACTIONS

Corrective action tracking systems are necessary to ensure that recommended corrective
actions are actually taken. PFM tracks corrective actions for OIG and GAO reports but
does not track corrective actions for management-conducted reviews. We found that
none of the bureaus we reviewed had adequate tracking systems for corrective actions
recommended in management-conducted reviews. Without a formal tracking system,
there are no controls to ensure that corrective actions are actually implemented.

Two bureaus did track some of their internal control reviews. BLM tracked all
recommendations from General Management Evaluations performed by its Division of
Evaluations and Management Services and BOR tracked recommendations on reviews
appearing on its annual plan. However, neither of these bureaus had comprehensive
tracking systems for all reviews supporting their annual statements of assurance.


                                             5
                          SUPPORTING DOI’S
                     ANNUAL ASSURANCE STATEMENT
The bureaus’ annual assurance statements we reviewed were based on inaccurate or
misleading listings of completed internal control reviews. Therefore, these statements
may not have been adequate to support the DOI’s Annual Assurance Statement. DOI’s
Handbook requires that bureau statements be supported with lists of internal control
reviews they conducted. The lists we reviewed were misleading because they:

       included reviews that were either not performed or not completed;

       included the same review more than once; and

       incorrectly identified status reports, financial statement information, and other
       activities as internal control reviews.

For example:

       BOR’s FY2005 Annual Assurance Statement was supported by a list that
       identified 223 internal control reviews; however, only 33 of these were identified
       as complete. The remaining 190 reviews included reviews that were identified as
       still ongoing or were not clearly classified.

       NPS’s FY2005 Annual Assurance Statement was supported by a list that
       identified 1,155 internal control reviews. The list did not identify review
       locations, responsible officials, and specific dates when reviews were completed.
       Some reviews were listed more than once, and 189 reviews were identified as not
       completed.

       BLM’s FY2005 annual review plan identified 70 internal control reviews. We
       reviewed the FY2005 annual assurance statement and found that only 10 of these
       reviews were reported as completed. There was no evidence that BLM reassessed
       its review plans to determine if the 10 completed reviews provided sufficient
       support for the annual assurance statement.

       At BIA’s Southern Pueblos Agency, we analyzed seven internal control reviews
       listed as support for the Education Line Officer's FY2005 annual assurance
       statement. We found that portions of one review included on the annual
       assurance statement were counted separately as two additional reviews and
       another review listed was not completed.

                               AUDIT FOLLOW-UP
We found that DOI did not have reasonable assurance that corrective actions were
implemented to remedy deficiencies identified in OIG reports. As a result, audit
recommendations had been closed without implementation, and the underlying
deficiencies addressed in the OIG recommendations may still exist.

                                             6
We reviewed nine PFM audit follow-up files and determined that PFM did not
adequately conduct and document its evaluations of bureau actions taken to implement
audit recommendations. Generally, we found that the PFM files were not well organized,
PFM analysts did not include documentation of their assessments and conclusions, and it
was difficult to locate or identify the documentation used to close specific
recommendations. We found that PFM officials and audit follow-up analysts were
unaware of or misinterpreted the guidance for classifying audit recommendations as
resolved and implemented. Specifically, we found:

       None of the nine files contained documented analyses which summarized or
       supported the analysts’ reviews, conclusions, and opinions that corrective actions
       were sufficient to consider the recommendations resolved and implemented. In
       one case, a PFM analyst provided a bureau instruction memorandum to justify the
       classification of a recommendation as implemented. However, there was no
       evidence in the file that the analyst had reviewed the memorandum and concluded
       that the memorandum adequately addressed the recommendation. We concluded
       that issuance of this memorandum did not implement the recommendation.

       Six of the nine files did not contain adequate documentation from the bureaus or
       any other source to support closure of the recommendations. For example, one
       recommendation was classified as resolved and implemented based on a verbal
       promise from a bureau to provide supporting documentation; however, the
       documentation was not subsequently provided. Another recommendation was
       erroneously classified as resolved and implemented. As a result of our review, a
       PFM official agreed to reclassify the recommendation.

       Five of the nine files did not contain documented decisions and notifications to
       appropriate DOI and bureau officials that recommendations had been formally
       classified as resolved and implemented.

       None of the nine files contained evidence that PFM was conducting supervisory
       reviews to ensure the audit follow-up files contained appropriate documentation
       to support audit resolution decisions.

Audit follow-up files should be sufficiently organized and documented to allow an
independent reviewer to conclude that corrective actions were sufficient to consider the
recommendations resolved and implemented.

In FY2005 and FY2006, OIG conducted verification reviews of selected
recommendations reported as implemented and found similar problems. For example:

       During FY2005, OIG completed verification reviews of 20 recommendations
       reported as implemented and found that 4 (20 percent) had not actually been
       implemented.




                                            7
       During FY2006, OIG completed verification reviews of 49 recommendations
       reported as implemented and found that 14 (29 percent) had not actually been
       implemented.

Circular A-50 provides the requirements for establishing systems to assure prompt and
proper resolution and implementation of audit recommendations. In addition, PFM
prepared DOI’s Handbook which includes policies and procedures for audit follow-up.
While we believe DOI’s handbook procedures provide valuable guidance, our audit
results demonstrate that the guidance was not being followed by PFM or the bureaus.
Specifically, the bureaus were not providing adequate documentation on the
implementation of OIG recommendations and PFM was closing recommendations
without sufficient documentation.

               CONSEQUENCES OF WEAKNESSES IN DOI’S
                   INTERNAL CONTROL PROGRAM
Weaknesses in the oversight of the internal control program, as they relate to the
effectiveness and efficiency of operations, increase the risk that DOI’s internal controls
cannot ensure:

       programs achieve their intended results;

       funds used are consistent with DOI’s mission; and

       resources are protected from waste, fraud, and mismanagement.

Because of the weaknesses we identified in DOI’s internal control program, we
concluded that DOI was not in full compliance with the Federal Managers’ Financial
Integrity Act and Circulars A-123 and A-50. Additionally, we concluded that DOI’s
internal control program did not ensure that the bureaus’ annual assurance statements on
internal control were reliable. Therefore, these bureau level assurances may not have
provided adequate support for the Secretary’s certification of DOI’s annual statement of
assurance.


                                 BEST PRACTICES
We identified several best practices used by other federal agencies and DOI bureaus for
managing their internal control programs. If adopted by DOI, these practices could
strengthen DOI’s internal control program.

Assurance Statements from Program Managers

The General Services Administration (GSA) requires all program managers at the GS-15
level and above to sign an annual assurance statement on internal controls within their
programs. The GS-15 managers have the option to require signed assurance statements


                                             8
from their subordinate managers at the GS-14 level. Program managers are directly
responsible for their programs and have the most direct and detailed knowledge of the
design and execution of internal controls.

DOI guidance only requires bureau directors and program assistant secretaries to sign
annual assurance statements to certify the adequacy of internal controls. Although not
required by Department policy, BIA and NPS require their regional directors to provide
assurance statements. Adopting the best practice of certifying annual assurance
statements at the program level would help to establish greater accountability for DOI
managers and could be used to support assurance statements from more senior
executives.

Annual Assurance Questionnaires

In addition to signing assurance statements, GSA program managers are required to
respond to an annual assurance questionnaire that provides detailed information on their
program’s compliance with internal control requirements. The questionnaire is
completed electronically using web technology and addresses key standards for internal
control. The manager must answer specific questions related to the following internal
control aspects:

       Control Environment
       Risk Assessment
       Control Activities
       Information and Communication
       Monitoring

In addition to the general questionnaire required of all managers, GSA also provides topic
specific questionnaires for managers in certain areas such as technology procurement,
building management, and information technology.

Adopting this best practice would allow DOI to better document the controls in place for
each program. Questionnaires would help identify areas requiring additional controls and
could be used to hold program managers responsible for the existence of internal controls
in their program areas.

Greater Visibility for Internal Control Program

Both GSA and the Department of Education have developed executive level guidance on
internal control requirements that are provided to senior leaders within their
organizations. The guidance creates greater visibility for the internal control program
and provides senior management with a synopsis of key requirements for controls within
their organizations.

GSA provides a 20-page executive guide on internal controls to its senior leaders. The
guide provides highlights of key requirements found in laws and regulations such as the
Federal Managers’ Financial Integrity Act; the Federal Financial Management
Improvement Act; the Federal Information Security Management Act; Circular A-123,

                                            9
and Circular A-127, “Financial Management Systems.” It also summarizes the internal
control process at GSA. The guide provides a comprehensive view of internal control
requirements for senior executives in a short, readable format.

The Department of Education has created a “List of Guiding Factors” that highlights
major components of internal control as documented in GAO’s “Standards for Internal
Control in the Federal Government.” We were informed that each Assistant Secretary
within the Department of Education was required to discuss the guiding factors with their
management and then sign the list. Requiring that Assistant Secretaries address these
issues with their managers helps create an environment that stresses the importance of
internal controls within the organization.

Adopting these best practices would provide senior managers with the high level internal
control information they need and would help create a greater sense of management
accountability.

BLM’s Division of Evaluations and Management Services

BLM created the Division of Evaluations and Management Services, which conducts a
limited number of comprehensive internal control reviews for the bureau and provides
training to its field offices. Many of the Division’s 17 full-time analysts have specialized
experience and advanced degrees in fields such as management, administration, and
natural resources. Through their reviews, the Division provides advice to managers on
improving business practices and organizational effectiveness. Adopting the best
practice of utilizing specialized personnel to conduct internal control reviews and provide
training could improve the internal control program at other bureaus.


                             MANAGEMENT VIEWS
While PFM agreed that the internal control program can be continually improved, it
disagreed with our overall conclusions regarding DOI’s existing internal control program.
Specifically, PFM stated that it has fully complied with Circular A-123 and insists that
DOI’s internal control program does ensure the bureaus’ annual assurance statements are
reliable and provide adequate support for the Secretary’s annual assurance statement.
Management indicated that it has taken a number of new steps to improve the internal
control processes during FY2005 and FY2006. Specifically, PFM:

   •   Required identification of assessable component inventories and risk assessments
       for those components.

   •   Required that a three year internal control review plan be developed tied to risk
       assessments.

   •   Prepared a checklist for upcoming site visits to bureaus to exercise oversight.

   •   Highlighted OIG recommendations during meetings with senior management.


                                            10
   •   Initiated a monthly work group of bureau audit liaison officers and internal
       control coordinators to address the entire spectrum of internal control issues and
       processes.

   •   Conducted a review of 400 audit recommendations closed in FY2006 and
       determined that more than 75 percent of the time adequate documentation was
       available in PFM files. In most other cases the documentation was available at
       the bureau. Fewer than 10 recommendations were reopened due to lack of
       adequate closure documentation.

After considering management’s response, we stand by our conclusions on the
Department’s internal control program. Our audit results clearly show that the bureaus
we reviewed were not effectively implementing their internal control program
responsibilities and PFM had not taken sufficient steps to hold them accountable. The
assurance statements we reviewed were not adequately supported. They included lists of
reviews that were not completed and other activities, such as meetings, without
explaining how these activities supported the statement of assurance. Additionally, none
of the bureaus we reviewed had adequate processes for inventorying components,
performing risk assessments, documenting internal control reviews, or tracking
implementation of corrective actions on management-conducted reviews. Despite PFM’s
assertion to the contrary, the results of our audit demonstrated that DOI:

       had not implemented an effective internal control program,

       had not adequately supported annual statements of assurance, and

       was not in full compliance with the Federal Managers’ Financial Integrity Act and
       Circulars A-123 and A-50.

We performed additional procedures to evaluate the new processes that PFM cited in its
response to the draft report. We found that while PFM had developed additional
guidance and oversight procedures, PFM was still in the initial stages of their
implementation. For example, PFM developed a checklist to evaluate bureau internal
control programs and it had begun scheduling site visits to bureaus to implement the
checklist. However, as of the date of its response, PFM had not yet conducted any site
visits and therefore, could not ensure that the bureaus have complied with the additional
guidance.




                                            11
                           RECOMMENDATIONS

We recommend that the Assistant Secretary for Policy, Management and Budget:

   1. Direct PFM to develop and implement additional oversight procedures that ensure
      the bureaus are adequately implementing their internal control programs. These
      procedures should ensure that bureaus adequately plan and prioritize internal
      control reviews, adequately conduct and document those reviews, and provide
      accurate lists of internal control reviews to support their annual assurance
      statements.

      DOI Response

      DOI concurred with the recommendation and stated that PFM has increased the
      level of oversight and involvement in the end-to-end process for internal controls.
      For example, PFM has issued additional guidance requiring bureaus to identify
      component inventories, conduct comprehensive risk assessments, and establish
      three year internal control review plans based on those assessments. Additionally,
      PFM has developed review guides and plans to conduct field visits to review the
      adequacy of bureau efforts.

      OIG Analysis of DOI Response

      PFM has taken recent steps to implement additional oversight procedures, but has
      not yet completed sufficient oversight to ensure that bureaus are currently
      complying with its guidance.

   2. Require bureaus to develop and implement tracking systems to monitor:

             All internal control reviews planned, in progress, or completed and

             The status of identified deficiencies and corresponding corrective actions.

      DOI Response

      DOI concurred with the recommendation; however, the response stated that
      bureaus already have systems to monitor internal control reviews including
      Corrective Action Tracking System reports. Discrepancies resulting from internal
      control reviews are to be recorded in a corrective action plan identifying the
      originating source, responsible manager, system, audit finding, risk level,
      corrective action, target milestone dates, and overall status. The response stated
      that PFM will modify the process to collect and store closure documentation
      within PFM and not rely on bureaus to be the sole source of this data.



                                          12
   OIG Analysis of DOI Response

   While bureaus do track corrective actions for audit recommendations, we found
   that the bureaus we reviewed did not track corrective actions for management-
   conducted reviews. In implementing this recommendation, PFM will need to
   ensure that bureaus expand their corrective action tracking to include actions
   identified in management-conducted reviews.

3. Direct PFM to develop and implement additional oversight procedures for the
   audit follow-up process. These procedures should require PFM analysts to
   adequately document the bases for their conclusions that recommendations are
   resolved and implemented and should require supervisory review of that
   documentation.

   DOI Response

   DOI concurred with the recommendation and stated that it made changes to
   improve the audit follow-up process. Specifically, PFM has stressed the need for
   adequate documentation and timely closure of audit recommendations. PFM will
   also maintain documentation to support audit recommendation resolutions rather
   than rely on the Bureaus to supply these documents.

   OIG Analysis of DOI Response

   The actions taken by PFM are a step in the right direction. However, additional
   steps are necessary to strengthen the oversight process. PFM should develop
   procedures requiring analysts to adequately document the bases for their
   conclusions that recommendations are resolved and implemented and to require
   supervisory review of that documentation.

4. Consider implementing the following best practices, where appropriate:

          Requiring all regional and state directors and program managers to
          provide annual assurance statements.

          Requiring all program managers to complete annual assurance
          questionnaires.

          Promoting greater visibility for the internal control program by developing
          executive guides and requiring bureau and office heads to address these
          issues with their management teams.

          Developing a staff that specializes in conducting internal control reviews
          and providing related training.




                                       13
DOI Response

DOI concurred with the recommendation and is implementing the first two best
practices identified in the report. These include requiring regional and state
directors to provide annual assurance statements and requiring program managers
to complete annual assurance questionnaires.

OIG Analysis of DOI Response

We encourage DOI to consider implementation of the remaining two identified
best practices.




                                   14
                                                                                Appendix 1


                     SCOPE AND METHODOLOGY
Our audit included a review of DOI’s oversight of internal control programs, including
the internal control processes at BIA, BLM, BOR, and NPS. We also reviewed DOI’s
audit follow-up program for OIG audits. DOI was implementing new internal control
guidance as a result of revisions to Circular A-123. DOI requested that we delay our
audit until after the new requirements were implemented. We decided to continue with
the audit, but we defined our audit scope to include only those internal control
requirements already in existence and being carried forward into the revised Circular A-
123. We focused on requirements supporting the effectiveness and efficiency of
operations as well as compliance with related laws and regulations. We excluded
controls over the reliability of financial reporting and compliance with related laws and
regulations which are tested by KPMG LLP as part of DOI’s annual financial statement
audits.

To accomplish our objective, we:

       Reviewed the laws and regulations that prescribe the requirements for internal
       control programs at federal agencies. This included the Federal Managers’
       Financial Integrity Act, Circulars A-123 and A-50, DOI’s Departmental Manual,
       DOI’s Internal Control and Audit Follow-up Handbook, and DOI’s annual
       internal control and audit follow-up guidelines.

       Conducted site visits and interviewed officials from DOI and its bureaus, other
       federal agencies, and non-governmental entities.

       Reviewed a judgmental sample of 63 internal control reviews that were used to
       support the bureaus’ Annual Assurance Statements to determine compliance with
       OMB Circular A-123 and DOI’s Handbook. The Annual Assurance Statements
       did not clearly identify all reviews that were used to support the certification. In
       many cases, internal control reviews could only be identified and reviewed at the
       field level. Therefore, we conducted site visits at nine field locations where we
       selected our sample items. Because we did not select a statistical sample, the
       deficiencies we identified cannot be projected to the entire population of reviews.
       However, the results of our work support our conclusion that bureaus reviewed
       often did not conduct these reviews in accordance with PFM requirements.

       Judgmentally selected a sample of 9 closed recommendations from a list of 135
       OIG performance audit recommendations that were closed between October 2003
       and January 2006. We reviewed these recommendations to determine whether
       PFM had accurately concluded from bureau information provided that each
       recommendation had been resolved and implemented. Because we did not select
       a statistical sample, the deficiencies we identified cannot be projected to the entire

                                            15
       population of reviews. Our conclusions on PFM’s audit follow-up process are
       supported by the results from our sample, our previous verification reviews on 69
       recommendations, and interviews with PFM analysts.

We determined that neither OIG nor GAO had performed an audit specific to the
management of DOI’s internal control program in the last 5 years. The accounting firm
KPMG annually reviews and reports on DOI’s financial operations. As part of these
reviews, KPMG tests DOI’s and bureaus’ internal controls for purposes of financial
reporting.

We conducted our audit from December 2005 through April 2007 in accordance with the
Government Auditing Standards, issued by the Comptroller General of the United States.
Accordingly, we included such tests of records and other auditing procedures considered
necessary under the circumstances.




                                          16
                                                                      Appendix 2

DOI OFFICES, BUREAUS, OTHER FEDERAL AGENCIES
 AND NON-GOVERNMENTAL ENTITIES CONTACTED
U.S. Department of the Interior
Office of the Secretary
     Office of Financial Management                      Washington, DC
     Office of the Chief Information Officer             Washington, DC
     Office of the Assistant Secretary- Indian Affairs   Reston, VA
     (Office of Audit and Evaluation)
Bureau of Indian Affairs
     Southwest Region Office                             Albuquerque, NM
     Office of Indian Education Programs (Southern       Albuquerque, NM
     Pueblos Agency)
Bureau of Land Management
     Alaska State Office                                 Anchorage, AK*
     Arizona State Office                                Phoenix, AZ*
     California State Office                             Sacramento, CA*
     Colorado State Office                               Lakewood, CO
     Division of Evaluation & Management Services        Washington, DC
     Idaho State Office                                  Boise, ID*
     Montana State Office                                Billings, MT*
     National Business Center (NBC)                      Denver, CO
     National Interagency Fire Center                    Boise, ID*
     Nevada State Office                                 Reno, NV*
     New Mexico State Office                             Santa Fe, NM*
     Oregon/Washington State Office                      Portland, OR*
     Utah State Office                                   Salt Lake City, UT*
     Wyoming State Office                                Cheyenne, WY*
Bureau of Reclamation
     Denver Office                                       Denver, CO
     Pacific Northwest Region                            Boise, ID*
Fish and Wildlife Services
     Policy and Directives Management                    Arlington, VA
Minerals Management Service
     Directorate of Policy and Management                Washington, DC
     Improvement
National Park Service
     Catoctin Mountain Park                              Thurmont, MD*
     Chesapeake and Ohio Canal                           Hagerstown, MD
     Comptroller's Office                                Washington, DC
     George Washington Memorial Parkway                  Memorial Parkway, VA*
     Manassas Battlefield National Park                  Manassas, VA
     National Capital Region Offices                     Washington, DC
     National Mall and Memorial Parks                    Washington, DC*
     Prince William Forest National Park                 Triangle, VA

* Offices contacted without a site visit.
                                            17
Office of Surface Mining                        Washington, DC
U.S. Geological Survey                          Reston, VA
General Services Administration
     Chief Financial Officer                    Washington, DC
Government Accountability Office
     Director, Consolidated Audits              Washington, DC*
Office of Management and Budget                 Washington, DC*
Social Security Administration
     Director, Policy and Standards             Baltimore, MD*
U.S. Department of Education
     Chief Financial Officer                    Washington, DC*
KPMG                                            Denver, CO




* Offices contacted without a site visit

                                           18
                                                               Appendix 3


         ACRONYMS AND ABBREVIATIONS
BIA              Bureau of Indian Affairs
BLM              Bureau of Land Management
BOR              Bureau of Reclamation
Department       Department of the Interior
DOI              Department of the Interior
GAO              Government Accountability Office
GSA              General Services Administration
Handbook         Internal Control and Audit Follow-up Handbook
NPS              National Park Service
OIG              Office of Inspector General
OMB              Office of Management and Budget
PCIE             President’s Council on Integrity and Efficiency
PFM              Office of Financial Management
PMB              Office of Policy, Management and Budget
IT               Information Technology




                              19
                                                              Appendix 4


   STATUS OF AUDIT RECOMMENDATIONS




Recommendations            Status               Action Required

       1                 Unresolved        PFM should provide additional
                                           information on actions taken or
                  Management concurred;    planned, including target dates
                  additional information   and titles of officials
                  needed                   responsible for implementation.

       2                 Unresolved        PFM should provide additional
                                           information on actions taken or
                  Management concurred;    planned, including target dates
                  additional information   and titles of officials
                  needed                   responsible for implementation.

       3                 Unresolved        PFM should provide additional
                                           information on actions taken or
                  Management concurred;    planned, including target dates
                  additional information   and titles of officials
                  needed                   responsible for implementation.

       4                 Unresolved        PFM should reconsider
                                           implementation of the
                  Management concurred;    remaining two best practices
                  additional information   and provide additional
                  needed                   information on actions taken or
                                           planned, including target dates
                                           and titles of officials
                                           responsible for implementation.




                                20
  Report Fraud, Waste, Abuse,
     and Mismanagement
          Fraud, waste, and abuse in government
          concerns everyone: Office of Inspector
          General staff, Departmental employees,
            and the general public. We actively
          solicit allegations of any inefficient and
            wasteful practices, fraud, and abuse
          related to Departmental or Insular Area
         programs and operations. You can report
              allegations to us in several ways.




By Mail:          U.S. Department of the Interior
                  Office of Inspector General
                  Mail Stop 5341 MIB
                  1849 C Street, NW
                  Washington, D.C. 20240

By Phone          24-Hour Toll Free               800-424-5081
                  Washington Metro Area           703-487-5435

By Fax            703-487-5402

By Internet       www.doioig.gov/hotline
